                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




             Another agency1(complainant) contacted our office with an allegation related to a contrabtor2
             (subject) doing business with NSF and the other agency. According to the complainant, the
             subject did not provide adequate supporting documentation for expenses claimed against a
             contract with the other agency. The complainant also alleged the subject was potentially double-
             billing the government.

             We obtained the subject's contract file from NSF's Division of Acquisition and Cooperative
             Support. We reviewed the contract file and interviewed the Administrative officer3 of th;
             division that hired the subject.

             We obtained and reviewed an invoice submitted by the subject, which contained very little
             information about the expenses incurred during the contract period. The contract was firm-fixed-
             price, so according to the NSF Contracting officer4 and FAR 16.202-1, the subject was entitled
             to the entire amount of the contract, regardless of the expenses incurred. In coordination with the
             complainant, we determined the subject did not double-bill the government for professional fees
             or travel expenses.
I
             In conclusion, the subject was entitled to the entire amount of the contract and it does not appear
             the subject double-billed the government. Therefore, this case is closed.




i
                                                                                                                   /




    NSF OIG Form 2 (1 1/02)
